 DEPARTMENT OF HOMELAND SECURITY
      Office of Inspector General


   The State of Florida’s Management of 

     State Homeland Security Grants 

             Awarded During 

     Fiscal Years 2002 through 2004 





      DRAFT – The State of Florida’s Management of State Homeland Security Grant Programs

OIG-08-20                                                          December 2007
                        Awarded During Fiscal Years 2002, 2003 and 2004
        FOR OFFICIAL USE ONLY - DO NOT DISTRIBUTE WITHOUT OIG AUTHORIZATION
                                                                          Office of Inspector General

                                                                          U.S. Department of Homeland Security
                                                                          Washington, DC 20528




                                     December 18, 2007


                                             Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the
Inspector General Act of 1978. This is one of a series of audit, inspection, and special reports
published as part of our oversight responsibilities to promote economy, effectiveness, and
efficiency within the Department.

The attached report presents the results of the audit of the State of Florida’s management of
State Homeland Security Grants awarded during Fiscal Years 2002 through 2004. We
contracted with the independent public accounting firm of Cotton & Company LLP to perform
the audit. The contract required that Cotton & Company LLP perform its audit according to
generally accepted government auditing standards and guidance from the Office of
Management and Budget and the Government Accountability Office. Cotton & Company’s
report identified areas where the State of Florida’s management of the grant funds could be
improved. Cotton & Company LLP is responsible for the attached auditor’s report dated
October 29, 2007, and the conclusions expressed in the report.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. It is our
hope that this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report.




                                             Richard L. Skinner 

                                             Inspector General        

October 29, 2007

Mr. James L. Taylor
Deputy Inspector General
Office of Inspector General
Department of Homeland Security
245 Murray Drive, SW, Building 410
Washington, DC 20528

Dear Mr. Taylor:

The Firm of Cotton & Company LLP performed an audit of the State of Florida’s Management
of the Department of Homeland Security Grants Awarded During Fiscal Years 2002 through
2004. The audit was performed in accordance with our Task Order TPD-ARC-06-K-00207
dated May 17, 2006.

This report presents audit results and recommendations to help improve the State’s management
of the audited State Homeland Security Grant Programs. These programs are commonly referred
to as first responder grant programs.

We conducted our audit in accordance with applicable Government Auditing Standards, 2003
revision. The audit was a performance audit as defined by Chapter 2 of the Government
Auditing Standards and included a review and report of program activities with a compliance
element. Although the audit report comments on costs claimed by the State, we did not perform
a financial audit, the purpose of which would be to render an opinion on the agency’s financial
statements or the funds claimed in the Financial Status Reports submitted to the Department of
Homeland Security.

We appreciate the opportunity to have conducted this audit. If you have questions, or if we can
be of further assistance, please call me at 703.836.6701.

Very truly yours,

COTTON & COMPANY LLP


Sam Hadley, CPA
Partner
Table of Contents/Abbreviations 


Executive Summary ..................................................................................................................... 1 


Background .................................................................................................................................. 3 


Results of Audit ............................................................................................................................ 7


     Florida Division of Emergency Management Did Not Have Effective 

      Policies and Procedures to Ensure Compliance with Grant Requirements For 

      Funding Allocations and Timeliness ..................................................................................... 7 

     Florida Division of Emergency Management Did Not Enter into Memorandums of 

      Understanding with Subgrantees Properly ........................................................................... 13 

     Florida Division of Emergency Management Did Not Have Effective Controls For Its 

      Subgrantees .......................................................................................................................... 15 



Appendices

Appendix A            Objectives, Scope, and Methodology .................................................................. 20 

Appendix B            Florida Office of Homeland Security Organization Chart ................................... 22 

Appendix C            Report Distribution .............................................................................................. 23 



Abbreviations

DHS                   Department of Homeland Security
FY                    Fiscal Year
OIG                   Office of Inspector General
Executive Summary

             Cotton & Company LLP completed an audit of the Department of
             Homeland Security’s (DHS) State Homeland Security Grants awarded to
             the State of Florida. The objectives of the audit were to determine whether
             the State (1) effectively and efficiently implemented the first responder
             grant programs, (2) achieved the goals of the programs, and (3) spent funds
             in accordance with grant requirements. The audit goal was to identify
             problems and solutions that would help the State of Florida prepare for and
             respond to terrorist attacks. Appendix A contains details on the audit
             objectives, scope, and methodology.

             The audit included review of approximately $191.5 million awarded to the
             State of Florida from the Fiscal Year (FY) 2002 State Domestic
             Preparedness Program, FY 2003 Parts I and II of the State Homeland
             Security Grant Program, and FY 2004 State Homeland Security Program.
             Florida’s Division of Emergency Management managed the programs,
             commonly referred to as first responder grant programs.

             Most of the findings and conditions contained in this report are areas where
             Florida Division of Emergency Management could develop or improve
             policies and procedures over grant processes. Our findings, summarized
             below, are discussed along with appropriate recommendations detailed in
             the body of this report.

             1. 	 Florida Division of Emergency Management did not have effective
                  policies and procedures to ensure compliance with grant requirements
                  for funding allocations and timeliness.

             2. 	 Florida Division of Emergency Management did not enter into
                  Memorandums of Understanding with subgrantees properly.

             3. 	 Florida Division of Emergency Management did not have effective
                  controls for its subgrantees.

             Although the scope of this audit included a review of costs claimed, a
             financial audit of those costs was not performed. Accordingly, we do not
             express an opinion on the Florida Division of Emergency Management’s
             financial statements or funds claimed in the Financial Status Reports
             submitted to the DHS.

             In response to the three audit objectives, we determined that for the first
             objective, the State of Florida effectively and efficiently implemented first



            The State of Florida’s Management of State Homeland Security Grants 

                       Awarded During Fiscal Years 2002 through 2004 



                                              Page 1
 responder grant programs. Regarding the second objective, for sampled
 transactions tested, the State allocated its funds in accordance with
 objectives stated in its strategy and achieved the program goals. Prior to
 FY 2004, a primarily centralized procurement approach was used. Florida
 Division of Emergency Management implemented a multi-jurisdictional
 and cross-functional, regional approach to assessing needs and capabilities
 and bridging gaps. The State of Florida’s Regional Security Domestic Task
 Forces, along with the umbrella Oversight Board and State Working
 Groups, have served as a model for other states to emulate.

 As addressed in Findings 1, 2, and 3, we do not consider the third objective,
 whether funds were spent according to grant requirements, to be met for the
 FY 2003 Parts I and II and FY 2004 grant years. Finding 1 indicates that
 Florida Division of Emergency Management could not demonstrate
 compliance or was noncompliant with several grant requirements in the FY
 2003 Parts I and II and FY 2004 grant years. It could not demonstrate
 compliance with three grant requirements stipulating that it obligate a
 specified percentage to local jurisdictions. Additionally, Florida Division of
 Emergency Management could not demonstrate that it fulfilled timeliness
 requirements for the same grants. Florida Division of Emergency
 Management, however, met the grant requirements for the FY 2002 grant.

 Finding 2 shows that the Florida Division of Emergency Management did
 not enter into Memorandums of Understanding properly with sub-recipients
 of grant funds. While Finding 3 identifies two internal control weaknesses
 in Florida Division of Emergency Management’s monitoring over
 subgrantees, the exceptions are largely limited to FY 2004, when Florida
 Division of Emergency Management initiated direct allocations to local
 jurisdictions.

 We have developed five recommendations to improve the overall
 effectiveness of Florida Division of Emergency Management’s operations.
 We recommend that DHS ensure that the Florida Division of Emergency
 Management develops policies and procedures to establish:

 • 	 Monitoring over and compliance with grant requirements governing
     prescribed funding levels to local jurisdictions and State programs;
 • 	 Monitoring over subgrantees; and
 • 	 Accountability for equipment and property purchased with grant funds.

 We also recommend that DHS require Florida Division of Emergency
 Management to demonstrate compliance with grant requirements before
 grant closeout. DHS concurred with the five recommendations.




The State of Florida’s Management of State Homeland Security Grants 

           Awarded During Fiscal Years 2002 through 2004 



                                  Page 2
Background
              The Homeland Security Grant Program is a federal assistance grant
              program administered by the U.S. Department of Homeland Security, Grant
              Programs Directorate within the Federal Emergency Management Agency.
              The current Grant Programs Directorate, hereafter referred to as DHS,
              began with the Office of Domestic Preparedness which transferred from the
              Department of Justice to DHS in March 2003. The Office of Domestic
              Preparedness was subsequently consolidated into the Office of State and
              Local Government Coordination and Preparedness which, in part, became
              the Office of Grants and Training, and which subsequently became part of
              the Federal Emergency Management Agency.

              DHS is responsible for enhancing the capabilities of state and local
              jurisdictions to respond to, and mitigate the consequences of, incidents of
              domestic terrorism. DHS provides grant funds to aid public safety
              personnel (e.g., first responders) in acquiring specialized training, exercises,
              and equipment necessary to safely respond to and manage terrorist incidents
              involving chemical, biological, radiological, nuclear, or explosive weapons,
              including weapons of mass destruction. First responders include
              firefighters, police, paramedics, and others. The grants are collectively
              referred to as “first responder” grants. These types of grants within the
              Homeland Security Grant Program provide federal funding to help states
              and local agencies enhance their capabilities to prevent, deter, respond to,
              and recover from threats or acts of terrorism.

              State governors appoint a State Administrative Agency responsible for
              managing and administering homeland security grant funds according to
              established federal guidelines. The State Administrative Agency also
              serves as the pass-through entity for funds subgranted to local, regional, or
              other state government agencies. The Governor of Florida designated the
              Florida Division of Emergency Management to serve as the State
              Administrative Agency.

              The State of Florida received approximately $191.5 million in funds from
              the Homeland Security Grant Program during FYs 2002 through 2004.
              During this period, subgrants were awarded to approximately 135 State
              agencies, local agencies, and first responder agencies. The Homeland
              Security Grant Program encompasses several different federal grant
              programs, including the State Domestic Preparedness Program and the State
              Homeland Security Grant Program.




             The State of Florida’s Management of State Homeland Security Grants 

                        Awarded During Fiscal Years 2002 through 2004 



                                               Page 3
 First Responder Grant Programs

 FY 2002 State Domestic Preparedness Program grants provided financial
 assistance to each of the nation’s states, U.S. Territories, the District of
 Columbia, and the Commonwealth of Puerto Rico. This program provided
 financial assistance for:

 1. 	 Purchase of specialized equipment to enhance the capability of state and
      local agencies to respond to incidents of terrorism involving the use of
      weapons of mass destruction.

 2. 	 Design, development, conduct, and evaluation of weapons of mass
      destruction exercises.

 3. 	 Administrative costs associated with the implementation of statewide
      domestic preparedness strategies.

 FY 2003 State Homeland Security Grant Program Part I funding
 provided financial assistance for:

 1. 	 Purchase of specialized equipment to enhance the capability of state and
      local agencies to prevent and respond to incidents of terrorism involving
      the use of chemical, biological, radiological, nuclear, or explosive
      weapons.

 2. 	 Design, development, conduct, and evaluation of exercises that train
      emergency responders and assess readiness to prevent and respond to a
      terrorist attack.

 3. 	 Design, development, and conduct of chemical, biological, radiological,
      nuclear, or explosive training programs.

 4. 	 Updating and implementation of each state’s homeland security
      strategy.

 FY 2003 State Homeland Security Grant Program, Part II provided
 supplemental funding available through FY 2003 for the State Homeland
 Security Grant Program to enhance first responder preparedness. FY 2003
 Part II funds also were available to mitigate the costs of enhanced security
 at critical infrastructure facilities during hostilities with Iraq and future
 periods of heightened threat.

 FY 2004 State Homeland Security Grant Program continued to provide
 states, U.S. Territories, the District of Columbia, and the Commonwealth of



The State of Florida’s Management of State Homeland Security Grants 

           Awarded During Fiscal Years 2002 through 2004 



                                  Page 4
 Puerto Rico funding for planning, equipment, training, exercise,
 management, and administrative costs for emergency prevention,
 preparedness, and response personnel. Program funding provided states and
 territories opportunities to more effectively fill the gaps between their needs
 and existing capabilities, as detailed in their updated Homeland Security
 Strategies.

 The State of Florida received approximately $191.5 million from these four
 grant programs. Funded activities and amounts are shown in Table 1.

                                             Table 1

                            Florida Homeland Security Grant Awards
                                     FYs 2002 through 2004
                                                   Grant Program
                                                       (‘000s)

                                         2003 State       2003 State
                                         Homeland         Homeland      2004 State
                            2002 State   Security         Security      Homeland
                            Domestic     Grant            Grant         Security
                            Preparedness Program          Program       Grant
  Funded Activity           Program      Part I           Part II       Program       Totals
  Equipment
  Acquisition                     $12,392       $16,599          N/A           N/A    $28,991

  Exercises                           575         4,150          N/A           N/A      4,725

  Training                            N/A         1,245          N/A           N/A      1,245
  Planning and
  Administration                      N/A         1,660          N/A           N/A      1,660
  First Responder
  Preparedness                        N/A          N/A        $54,301          N/A     54,301
  Critical Infrastructure
  Protection                          N/A          N/A          8,354          N/A      8,354
  State Homeland
  Security                            N/A          N/A           N/A        $69,967    69,967
  Law Enforcement
  Terrorism Prevention
  Program                             N/A          N/A           N/A         20,762    20,762

  Citizens Corps                      N/A          N/A           N/A          1,453     1,453

  TOTALS                          $12, 967      $23,654       $62,655       $92,182 $191,458




The State of Florida’s Management of State Homeland Security Grants 

           Awarded During Fiscal Years 2002 through 2004 



                                   Page 5
 Homeland Security in the State of Florida

 Immediately following the terrorist attacks on September 11, 2001, the
 Governor of the State of Florida, by Executive Order, directed the Florida
 Division of Emergency Management and the Florida Department of Law
 Enforcement to conduct a comprehensive assessment of Florida’s capability
 to prevent, mitigate, and respond to a terrorist attack. The Florida Division
 of Emergency Management, reporting to the Executive Office of the
 Governor, is charged with overseeing domestic preparedness and is the
 State Administrative Agency for the Department of Homeland
 Security’s first responder grant funds. (During FY 2002 through FY 2004,
 the Florida Division of Emergency Management reported to the Division of
 Community Affairs. See Appendix B for the Florida Office of Homeland
 Security Organization Chart.)

 The Florida Division of Emergency Management’s mission is to “ensure
 that Florida is prepared to respond to emergencies, recover from them, and
 mitigate against their impacts.” The Florida Division of Emergency
 Management is comprised of the following bureaus:

      • 	 Bureau of Compliance Planning and Support: Formulates
          emergency management policy, contracts, budget, and finance.

      • 	 Bureau of Preparedness and Response: Develops and maintains
          the State’s ability to plan for and respond to threats.

      • 	 Bureau of Recovery and Mitigation: Works to reduce or 

          eliminate risks to human life and property from disasters. 


 The Governor also established Regional Domestic Security Task Forces,
 which coincide with the seven regional Emergency Management response
 areas. These multi-jurisdictional Task Forces, each chaired by a local
 sheriff and Florida Department of Law Enforcement regional director, are
 comprised of members from first responder entities including law
 enforcement, fire, hazardous material, emergency management, and public
 health.

 The task forces also form partnerships with entities such as schools and
 private industries to achieve broad inclusion and ensure that integral
 members of the community participate. These task forces contribute to the
 State’s ability to prevent and, if necessary, respond to acts of terrorism.
 Additionally, the State created State Working Groups, which are advisory
 committees comprised of subject matter experts, for functions such as
 exercises, training, interoperable communications, and intelligence.


The State of Florida’s Management of State Homeland Security Grants 

           Awarded During Fiscal Years 2002 through 2004 



                                  Page 6
                The Florida Division of Emergency Management works closely with the
                Florida Department of Law Enforcement, Regional Domestic Security Task
                Forces, and State Working Groups to develop a State domestic security
                strategy, assess capabilities and needs, prioritize projects in alignment with
                the strategy, and advance the integration of domestic preparedness into an
                all-hazards approach.

                We coordinated all audit efforts with the Florida Division of Emergency
                Management, where we initially conducted an entrance conference and
                performed subsequent test work. We also reviewed subgrantee operations
                at three State agencies and six local jurisdictions (listed in Appendix A).

Results of Audit

     Florida Division of Emergency Management Did Not Have Effective
     Policies and Procedures to Ensure Compliance with Grant
     Requirements For Funding Allocations and Timeliness

                For each of the grant years under audit, DHS required the State
                Administrative Agency to administer grant awards according to stipulations
                outlined in program guidance for each year. These stipulations included
                prescribed funding allocations to local jurisdictions, ceilings on funds for
                programs and administrative costs, and timeframe requirements for
                obligating funds. The Florida Division of Emergency Management did not
                develop or implement policies and procedures to effectively monitor and
                assess its performance of grant funds and, as a result, did not comply or
                could not demonstrate compliance for all of the DHS grant requirements.

                Background for Accounting System - Florida Division of Emergency
                Management’s Finance and Logistics Management Section records
                financial transactions in a general ledger system, Florida Accounting and
                Information Reporting. The system is designed to monitor statutory budget
                authority, which differs from federal grant requirements. The system has
                limitations that prevent the user from customizing it to fit multiple
                requirements.

                Therefore, to record an enhanced level of financial detail, Finance and
                Logistics Management Section maintains Excel spreadsheets, referred to as
                posting spreadsheets, which report budget authority, encumbrances,
                expenditures, and remaining encumbrance balance for individual
                transactions (each approved budgetary item and related expenditure).
                Finance and Logistics Management Section initially developed these Excel-
                based posting spreadsheets to monitor budget authority. Neither of these


               The State of Florida’s Management of State Homeland Security Grants 

                          Awarded During Fiscal Years 2002 through 2004 



                                                 Page 7
 records (the Florida Accounting and Information Reporting system or the
 Excel spreadsheets), however, has sufficient detail to effectively or
 efficiently monitor grant compliance with DHS grant requirements.

 The Florida Division of Emergency Management did not develop or
 implement policies and procedures to effectively monitor and assess its
 performance of grant funds and, as a result, did not comply or could not
 demonstrate compliance for all of the DHS grant requirements.
 Collectively, the Office of Justice Programs Financial Guide, the grant
 award terms and conditions, and Office Management and Budget Circular
 A-133, Subpart D, specifically address the federal requirements for
 monitoring and assessing performance.

 Florida Division of Emergency Management had not assigned responsibility
 to a specific individual and no one assumed responsibility for compliance.
 Under the FY 2002 grant, Florida Division of Emergency Management
 purchased and distributed equipment to local jurisdictions and, as a result of
 this centralized approach, met the FY 2002 grant requirements for funding
 allocations to local jurisdictions. Having met these grant requirements, the
 Florida Division of Emergency Management assumed it was meeting
 similar grant requirements in subsequent grant years. During the planning
 stages of the subsequent DHS grant funding, Florida Division of Emergency
 Management identified proposed expenditures and labeled them for
 identification purposes with the grant requirements. Subsequent to this
 initial planning of funding, however, Florida Division of Emergency
 Management did not monitor or assess its performance with the grant
 requirements on a regular basis.

 We met with key personnel on several occasions to discuss grant
 compliance. While Florida Division of Emergency Management
 demonstrated compliance for some requirements, it did not provide
 evidence to demonstrate compliance with certain requirements, and did not
 comply with other requirements, detailed below.

 Allocating Funds as Required - Florida Division of Emergency
 Management did not track performance with grant requirements stipulating
 that it obligate a specific proportion of funds to local jurisdictions.

 DHS program guidance required the following:

      • 	 FY 2003 Part I: 80 percent of funding allocations for equipment
          must be obligated to local communities.




The State of Florida’s Management of State Homeland Security Grants 

           Awarded During Fiscal Years 2002 through 2004 



                                  Page 8
      • 	 FY 2003 Part II: At least 80 percent of funding allocation for First
          Responder Preparedness must be provided to local communities.

      • 	 FY 2004: Not less than 80 percent of State Homeland Security
          Program funds shall be obligated to local units of government.

 While the burden of demonstrating compliance resides with Florida
 Division of Emergency Management, we attempted to independently test
 compliance using Finance and Logistics Management Section’s ancillary
 spreadsheets. In order to comply with the grant requirement that a specified
 percentage of funds be obligated to local jurisdictions, the Finance and
 Logistics Management Section identified each transaction in the Excel
 posting spreadsheets as either a “State” (funding remained at the State level)
 or “local” jurisdiction (funding was allocated and subgranted to a local
 jurisdiction). We were unable, however, to complete the calculation
 because, as Finance and Logistics Management Section personnel informed
 us, there are obligations (and related expenditures) identified as a “State”
 agency, which include equipment that was actually distributed to “local”
 jurisdictions. The only way to determine exact amounts retained by the
 State and allocated to local jurisdictions would be to review each contract
 file to determine where the equipment was distributed. While Florida
 Division of Emergency Management did not actively and routinely monitor
 obligations and actual expenditures to State agency and local jurisdictions,
 this situation was compounded by the accounting process for recording
 obligations and expenditures.

 Florida Division of Emergency Management commingled and reported
 equipment allocations to State agencies with those for local jurisdictions in
 manual spreadsheets for the FY 2003 Parts I and II and FY 2004 grants.
 There are accounting transactions for purchases of equipment where the
 State retained a portion of the equipment for itself, but designated the entire
 expenditure on the Excel posting spreadsheets as “local” jurisdictions. For
 example, a purchase of eight trailers for transporting interoperable
 communications equipment was designated as “local jurisdiction.” Florida
 Division of Emergency Management and Florida Department of Law
 Enforcement each retained one trailer for use with the Emergency
 Operations Center. The commingling of State and local equipment
 allocations precludes Florida Division of Emergency Management’s ability
 to easily and efficiently determine and monitor compliance with
 requirements that the State obligate a specified portion of funds to local
 jurisdictions. To make that determination, Florida Division of Emergency
 Management would need to manually review all purchases made with grant
 funds and update the tracking spreadsheets to accurately record where
 equipment purchases were distributed.


The State of Florida’s Management of State Homeland Security Grants 

           Awarded During Fiscal Years 2002 through 2004 



                                  Page 9
 Applying Fund Ceilings as Required - In addition to requirements for
 allocating money between local jurisdictions and State agencies, Florida
 Division of Emergency Management could not demonstrate compliance, or
 did not comply, with DHS prescribed ceiling limits on grant funds as
 follows:

      • 	 FY 2003 Part I: Funding for equipment allocation cannot exceed
          $16,599,000.

      • 	 FY 2003 Part I: Funding for exercise allocation cannot exceed
          $4,150,000.

      • 	 FY 2003 Part II: Only three percent of total first responder
          preparedness funding allocation may be used for administrative
          purposes.

      • 	 FY 2004: No more than three percent of the total amount of funds
          allocated to the State for each program may be used statewide for
          management and administrative purposes. Any portion of the three
          percent retained by the State must be included within the 20 percent
          of the total funds available to the State.

 FY 2003 Part I Equipment Allocation - For the FY 2003 Part I grant, the
 State of Florida was allocated up to $16,599,000 for its equipment
 acquisition expenditures. Finance and Logistics Management Section
 provided the calculation shown below as support for compliance with this
 requirement.

          Total Disbursements                                 $17,856,951.81 

          Less: Training                                       (1,245,000.00) 

          Less: Refund                                            (12,951.81) 

          Total Equipment Expenditures                        $16,599,000.00


 While total disbursements were taken from the accounting system’s general
 ledger, the training amount was taken from the grant budget (not actual
 expenditures). The amount shown on Finance and Logistics Management
 Section Excel posting spreadsheets for actual training expenditures is
 $740,824. Finance and Logistics Management Section officials stated the
 actual expenditures were $1,245,000, but the only support they provided
 was the Excel-based spreadsheets. Florida Division of Emergency
 Management did not respond to our multiple requests for supporting general
 ledger documentation for the training expenditures or refunds.



The State of Florida’s Management of State Homeland Security Grants 

           Awarded During Fiscal Years 2002 through 2004 



                                 Page 10
 Since Finance and Logistics Management Section officials did not provide
 the general ledger detail for the training expenditures or refunds, we relied
 on their Excel-based spreadsheets and recomputed their calculations.
 Corrected expenditures for equipment in FY 2003 Part I, provided below,
 show that Florida spent $517,128 more than the DHS grant requirement that
 capped equipment acquisition allocation at $16,599,000:

          Total Disbursements                                 $17,856,951.81 

          Less: Training                                         (740,824.00) 

          Total Equipment Expenditures                        $17,116,127.81 

          Less Equipment Acquisition Ceiling                  $16,599,000.00

          Overspent Grant Allocation                             $517,127.81


 FY 2003 Part I Exercise Allocation - Similarly, Florida Division of
 Emergency Management appears to have exceeded its $4,150,000 exercise
 allocation by $654. Similar to the equipment allocation calculation above,
 Florida Division of Emergency Management stated that it received refunds
 of $654, but did not provide support that a refund was actually received.
 Without evidence of these refunds, we conclude that the Florida Division of
 Emergency exceeded its exercise allocation by $654.

 FY 2003 Part II and FY 2004 Management and Administrative
 Allocation - Florida Division of Emergency Management also did not
 provide evidence that it complied with the administrative funds threshold
 requirement for the FY 2003 Part II and FY 2004 grants. For the FY 2003
 Part II grant, DHS grant guidance stipulated that only three percent of the
 total first responder preparedness allocation may be used for administrative
 purposes. Florida Division of Emergency Management did not provide
 support that the administrative fund did not exceed the three percent limit of
 the First Responder Preparedness funds.

 For the FY 2004 grant, DHS guidance stipulated that no more than three
 percent of the total amount allocated to the State for each program may be
 used statewide for management and administrative purposes. Any portion
 of the three percent retained by the State must be included within the 20
 percent of total funds available to the State. In FY 2004, Florida Division
 of Emergency Management allocated administrative funds to itself, other
 State agencies, and local jurisdictions, but the Florida Division of
 Emergency Management did not maintain data on administrative costs
 incurred by the other entities. As a result, Florida Division of Emergency
 Management only provided evidence of its own administrative funds, and
 thus support was incomplete. Accordingly, Florida Division of Emergency
 Management could not demonstrate grant compliance.




The State of Florida’s Management of State Homeland Security Grants 

           Awarded During Fiscal Years 2002 through 2004 



                                 Page 11
      Meeting Timeframes as Required - Finally, Florida Division of
      Emergency Management officials did not monitor their performance with
      timeliness requirements nor maintain supporting documentation indicating
      that they complied with requirements to obligate funds within specified
      timeframes. For the FY 2003 Part I and Part II grants, the State
      Administrative Agency was required to obligate funds within 45 days of the
      grant award date. For the FY 2004 grant, the State Administrative Agency
      was required to obligate funds within 60 days after the grant award. Since
      Florida Division of Emergency Management officials did not maintain
      documentation of the obligation dates, they could not demonstrate grant
      compliance with these timeliness requirements.

Recommendations
      We recommend that the Assistant Administrator, Grant Programs
      Directorate within the Federal Emergency Management Agency, require the
      Florida Division of Emergency Management to:

      1. 	 Develop and implement monitoring policies and procedures to ensure
           compliance with grant requirements involving the allocation of funds to
           local jurisdictions, specific programs, and timeliness of awarding funds
           to subgrantees.

      2. 	 Demonstrate compliance with grant requirements before grant closeout
           for the FY 2003 Parts I and II and FY 2004 grants, which may include
           disallowances for those expenditures incurred by State agencies in
           excess of grant allowances.

State of Florida Comments

      The State contends that it clearly demonstrated, during interviews and via
      spreadsheets shown to the Auditors, that the State was in compliance with
      the following grant requirements:

           • 	 FY 2003 Part I, equipment allocations to local jurisdictions;
           • 	 FY 2003 Part II, First Responder allocations to local jurisdictions;
           • 	 FY 2003 Part II and FY 2004, Management and Administrative
               funds allocation; and
           • 	 FY 2003 Parts I and II and FY 2004, projects were approved by the
               State Legislature and Domestic Security Oversight Board within the
               grant guidance timeframes.




     The State of Florida’s Management of State Homeland Security Grants 

                Awarded During Fiscal Years 2002 through 2004 



                                      Page 12
           The State, however, is developing a more comprehensive spreadsheet for
           more closely identifying the 80 percent allocation and the Management and
           Administrative percentages to track grant compliance.

     DHS Grant Programs Directorate Verbal Comments

           DHS concurred with the finding and recommendations that the State of
           Florida develop a more efficient and effective method to monitor grant
           requirements and demonstrate compliance with grant requirements before
           grant closeout.

     Auditor’s Analysis

           We do not concur that the Florida Division of Emergency Management
           demonstrated compliance with the grant requirements cited. However, the
           development of a grant requirement monitoring process and enhanced
           management information adequately addresses the recommendations.

           The Grant Programs Directorate should provide corrective actions for the
           two recommendations and a plan to implement those corrective actions
           within 90 days.

Florida Division of Emergency Management Did Dot Enter into
Memorandums of Understanding with Subgrantees Properly
           The Florida Division of Emergency Management did not enter into
           Memorandums of Understanding properly with sub-recipients of grant
           funds.

           DHS Grant Requirements for Funds to Local Jurisdictions

           DHS program guidance required the following:

                • 	 FY 2004: Each state will obligate not less than 80 percent of State
                    Homeland Security Program, Law Enforcement Terrorism
                    Prevention Program, and Citizen Corp funds to local units of
                    government within 60 days after the grant award. If requested in
                    writing by a local unit of government, the State may retain some or
                    all of the local unit of government’s allocation of grant funds for
                    purchases made on behalf of the local unit of government. States
                    holding grant funds on behalf of local units of government must
                    enter into a memorandum of understanding with the local unit of




          The State of Florida’s Management of State Homeland Security Grants 

                     Awarded During Fiscal Years 2002 through 2004 



                                           Page 13
               government specifying the amount of funds to be retained by the
               State for purchases.

      The Florida Division of Emergency Management obligated $1,123,072 of
      the FY 2004 State Homeland Security Program grant funds to the Florida
      Fish and Wildlife Conservation Commission, which awarded the funds to
      seven local jurisdictions to purchase vessels. The Florida Division of
      Emergency Management did not, however, enter into a Memorandum of
      Understanding with the Florida Fish and Wildlife Conservation
      Commission or the local jurisdictions. The budget chief at one of the local
      jurisdictions, which received a subgrant award from the Florida Fish and
      Wildlife Conservation Commission, stated that the local jurisdiction did not
      enter into a Memorandum of Understanding with the Commission or with
      the Florida Division of Emergency Management. We determined that the
      Florida Division of Emergency Management did not enter into
      Memorandums of Understanding with any of the local jurisdictions that
      received the property.

Recommendation
      We recommend that the Assistant Administrator, Grant Programs
      Directorate within the Federal Emergency Management Agency, require the
      Florida Division of Emergency Management to implement controls to
      comply with grant funding obligation stipulations requiring that the State
      Administrative Agency enter into Memorandums of Understanding with
      affected jurisdictions upon their request.

State of Florida Comments

      The State of Florida does not concur with Auditor’s Finding 2 for the
      following reasons:

      Nowhere within the DHS grant guidance does it indicate that each and
      every recipient that receives equipment or the benefit of equipment must be
      a part of a Memorandum of Understanding with the State Administrative
      Agency. Furthermore, in the finding, Florida Fish and Wildlife
      Conservation Commission did not hold grant funds on behalf of local units
      of government. Florida Fish and Wildlife Conservation Commission signed
      a cost-reimbursement sub-grant agreement with each local unit of
      government. The local units of government purchased the vessels and then
      requested reimbursement from the State agency (Florida Fish and Wildlife
      Conservation Commission). At no point did Florida Fish and Wildlife
      Conservation Commission purchase the vessels on behalf of the locals




     The State of Florida’s Management of State Homeland Security Grants 

                Awarded During Fiscal Years 2002 through 2004 



                                      Page 14
           which would in turn require would have required a Memorandum of
           Understanding. Therefore this finding remains inaccurate.

     DHS Grant Programs Directorate Verbal Comments

           DHS concurs with the finding and recommendation.

     Auditor’s Analysis

           While the State of Florida did not concur with either the finding or
           recommendation, the Grant Programs Directorate concurred with the
           finding and recommendation.

           The Grant Programs Directorate should provide corrective actions for the
           recommendation and a plan to implement corrective actions within 90 days.

Florida Division of Emergency Management Did Not Have Effective
Controls For Its Subgrantees
           Florida Division of Emergency Management drafted and revised but did not
           implement a comprehensive monitoring program to measure subgrantee
           performance. Although DHS had made previous recommendations for
           improvement in this area, Florida Division of Emergency Management did
           not conduct monitoring visits at local jurisdictions or State agencies to
           determine compliance with grant conditions, and desk reviews were
           insufficient for oversight purposes. As a result, subgrantees used DHS
           grant funds to purchase property that was not on the Authorized Equipment
           List, and several local jurisdictions could not account for equipment
           centrally procured but distributed to them.

           The effect of Florida Division of Emergency Management’s lack of
           monitoring over subgrantees is limited, because a centralized approach was
           used in early grant years. For grant years FY 2002 and FY 2003 Part I,
           Florida Division of Emergency Management centrally purchased and
           distributed equipment to the subgrantees. In FY 2003 Part II, Florida
           Division of Emergency Management primarily pursued a centralized
           approach, but allocated funds to other State agencies. In FY 2004, Florida
           Division of Emergency Management began to award funds to subgrantees.
           As a result, the effects of a lack of monitoring did not have a significant
           effect on FY 2002 and FY 2003 Parts I and II grant years, but surfaced with
           subgrant awards in FY 2004.




          The State of Florida’s Management of State Homeland Security Grants 

                     Awarded During Fiscal Years 2002 through 2004 



                                           Page 15
 In the grant award between the Office of Domestic Preparedness and the
 Florida Division of Emergency Management, the following is stipulated:
 “The recipient agrees to comply with the financial and administrative
 requirements set forth in the current edition of the Office of Justice
 Programs Financial Guide.” According to the Financial Guide, Chapter 9,
 Subawards of Discretionary Project-Supported Effort, “The primary
 recipient is responsible for monitoring the sub-recipient and ascertaining
 that all fiscal and programmatic responsibilities are fulfilled.”

 The Florida Division of Emergency Management developed a draft policy
 and related procedure recognizing that:

          As the steward of the State Homeland Security Grant Program
          funds, the Florida Division of Emergency Management (FDEM) has
          a responsibility to track and monitor the status of the grant activity
          and items purchased.

 This policy required monitoring either through site visits and/or desk
 reviews based on the funding level. It was not, however, implemented. The
 DHS also cited the lack of monitoring over subgrantees as part of its
 oversight of Florida Division of Emergency Management. As a result, in
 April 2007, Florida Division of Emergency Management developed updated
 policies and procedures including the following:

      • 	 Monitoring Procedure, which describes monitoring policies and
          procedures, stipulates the frequency of site visits and/or desk
          reviews, outlines areas to be examined (such as physical inspection
          of equipment and review of training and exercises), and describes
          Desk Top Monitoring Procedures and Site Visit Procedures;

      • 	 Pre-monitoring Site Visit Checklist specifies necessary documents
          and data for the visit; and

      • 	 Site Visit Worksheets cover both financial and programmatic 

          topics. 


 While written policies and procedures governing subgrantee monitoring
 exist, they have yet to be implemented.

 Equipment Purchases Process

 Each subgrantee was required to submit a Proposed Budget Worksheet with
 a “detailed proposed budget to account for the full allocation” of funds and
 a “list of equipment to be purchased.”


The State of Florida’s Management of State Homeland Security Grants 

           Awarded During Fiscal Years 2002 through 2004 



                                 Page 16
 Florida Division of Emergency Management did not, however, require
 sufficient explanatory language on the subgrant award Budget Worksheet
 (Proposed Worksheet). Likewise, Florida Division of Emergency
 Management did not always adequately review proposed budgets on its
 grant agreements with subgrantees.

 We do not consider these two internal controls ⎯ monitoring of
 subgrantees and review of proposed budgets ⎯ to have been fully in place.
 As a result, several deficiencies and instances of noncompliance with grant
 requirements occurred. For instance, at several local jurisdictions, control
 deviations existed over equipment purchases.

 At two local jurisdictions where we conducted internal control testing, we
 noted purchases or proposed purchases on Budget Worksheets for
 equipment that were not specifically identified as eligible per the DHS
 Authorized Equipment List. For example, we noted the following types of
 equipment and other expenditures:

      • 	 Custom office furniture and installation
      • 	 Blackberry communication devices
      • 	 Landscaping to clear vegetation for visibility of Emergency 

          Operations Center 

      • 	 Overhead projector

 Florida Division of Emergency Management should have identified these
 purchases during the review process of the proposed budget and submitted
 them to the Office of Domestic Preparedness for evaluation and approval
 (or rejection). These deviations are the result of two control weaknesses:
 proposed budgets lacked sufficient detail, and proposed budgets were
 inadequately reviewed by Florida Division of Emergency Management.
 Both of these control weaknesses stem from the lack of an overarching
 control for subgrantee monitoring.

 Accountability For Centrally Purchased Equipment

 The Florida Division of Emergency Management did not establish control
 and accountability policies for centrally purchased equipment distributed to
 local jurisdictions. Officials in the Florida Division of Emergency
 Management and the local jurisdictions told us that once distributed,
 equipment is the responsibility of the local jurisdiction.




The State of Florida’s Management of State Homeland Security Grants 

           Awarded During Fiscal Years 2002 through 2004 



                                 Page 17
    Code of Federal Regulations Title 28, § 66.20 (b)(3): Internal Control
    requires that “effective control and accountability must be maintained for all
    grant and subgrant cash, real and personal property, and other assets.”

    We obtained equipment lists from a State agency that centrally purchased
    and distributed equipment to local jurisdictions. One local jurisdiction
    could not confirm receipt of a trailer from the State agency. Another local
    jurisdiction could not account for pieces of equipment. A representative
    from a third jurisdiction expressed concerns over the lack of accountability
    over State-purchased equipment distributed to local jurisdictions. This
    representative recommended that local jurisdictions receiving centrally-
    purchased equipment should sign for and, upon audit or monitoring request,
    provide the equipment or provide evidence that it was expended. The
    representative also commented that local jurisdictions are not always aware
    that they will receive equipment. Further, when equipment arrives, some
    may be allocated for another local jurisdiction, or the local jurisdictions are
    instructed to retrieve equipment from another local jurisdiction.

    The above-mentioned trailer illustrates the lack of accountability for
    distributed equipment. While State agency records indicate that it
    distributed a trailer to this local jurisdiction, the trailer could be located at a
    different site within that region. In a similar example, State-agency records
    indicate that it distributed two pieces of monitoring equipment to a sheriff’s
    office. The sheriff’s office did not, however, have record of them and
    thinks they were intended for, and ultimately delivered to, the fire
    department, although initially delivered to the sheriff’s office.
    Accountability over centrally purchased and distributed equipment is
    lacking.

Recommendations
    We recommend that the Assistant Administrator, Grant Programs
    Directorate within the Federal Emergency Management Agency, require the
    Florida Division of Emergency Management to:

    1. 	 Develop a timeline to fully implement its policies and procedures for
         subgrantee monitoring.

    2. 	 Develop and implement policies and procedures governing control and
         accountability for equipment distributed to local jurisdictions.




   The State of Florida’s Management of State Homeland Security Grants 

              Awarded During Fiscal Years 2002 through 2004 



                                    Page 18
State of Florida Comments

      The State of Florida does not concur with Auditor’s Finding 3 for the
      following reasons: The Office of Domestic Preparedness staff was
      contacted regarding eligibility of purchase. Nowhere within the grant
      guidance was there a template or guidance provided for developing a
      monitoring program.

      The process that the State Administrative Agency now follows is that
      each subgrantee is responsible for providing the State Administrative
      Agency with a Budget Detail Worksheet. All items on the Budget
      Detailed Worksheet are now reviewed for eligibility on the Authorized
      Equipment List. If an item is not on that list, then the Programmatic
      Planner contacts the DHS Preparedness Officer for the final approval.

DHS Grant Programs Directorate Verbal Comments

      While DHS officials did not fully concur with the entire finding, they
      concurred with the recommendations.

      DHS officials did not concur with the finding section involving the equipment
      purchases process. They reported that the equipment listed under this section was
      eligible and, therefore, the Florida Division of Emergency Management was not
      required to undergo approval from DHS before making said purchases.

Auditor’s Analysis

      The State of Florida has developed policies and procedures to monitor
      subgrantees. In addition, DHS officials stated that they will provide the
      necessary oversight to ensure that the State of Florida is addressing its
      monitoring processes, including the control and accountability for
      equipment distributed to local jurisdictions. Therefore, we consider the
      anticipated action by both parties to be adequate.

      The Grant Programs Directorate should provide corrective actions for the
      two recommendations and a plan to implement those corrective actions
      within 90 days.




     The State of Florida’s Management of State Homeland Security Grants 

                Awarded During Fiscal Years 2002 through 2004 



                                      Page 19
Appendix A
Objectives, Scope, and Methodology


                        Audit objectives were to determine if the State of Florida effectively and
                        efficiently implemented first responder grant programs, achieved program
                        goals, and spent funds awarded according to grant requirements. The
                        audit goal was to identify problems and solutions that would help the State
                        of Florida prepare for and respond to terrorist attacks.

                        The scope of the audit included the following grant programs, which are
                        described in the Background section of this report.

                             •   FY 2002 State Domestic Preparedness Program
                             •   FY 2003 State Homeland Security Grant Program Part I
                             •   FY 2003 State Homeland Security Grant Program Part II
                             •   FY 2004 Homeland Security Grant Program

                        The audit methodology included work at DHS headquarters, State of 

                        Florida offices responsible for management of the grants, and the 

                        following State agency and local jurisdiction subgrantees: 


                             •   State agencies:
                                 •   State Technology Office
                                 •   Department of Agriculture
                                 •   Fish and Wildlife Conservation Commission

                             •   Local Jurisdictions:
                                 •  Bay County Sheriff’s Office
                                 •  Lake County Emergency Management
                                 •  City of Jacksonville Sheriff’s Office
                                 •  Lee County Emergency Management
                                 •  Sarasota County Sheriff’s Office
                                 •  Broward County Emergency Management

                        Visit purposes were to obtain an understanding of the four grant programs
                        and assess how well the programs were being managed. Our audit
                        considered DHS and the State of Florida policies and procedures, as well
                        as the applicable federal requirements. We reviewed documentation
                        received from the DHS, as well as from State of Florida offices and
                        grantees. We interviewed appropriate officials, reviewed documentation
                        supporting State of Florida and subgrantee management of awarded grant
                        funds, and physically inspected some of the equipment procured with the
                        grant funds.

                        We also reviewed prior audit reports dealing with the first responder
                        issues, such as reports from the Government Accountability Office and
                        from the House Appropriations Committee’s Survey and Investigative
                        Staff.
                      The State of Florida’s Management of State Homeland Security Grants
                                 Awarded During Fiscal Years 2002 through 2004

                                                       Page 20
Appendix A 

Objectives, Scope, and Methodology (continued)





                         We conducted the audit between September 2006 and May 2007
                         according to the Government Auditing Standards prescribed by the
                         Comptroller General of the United States.

                         This was primarily a performance rather than a compliance audit
                         performed by a Department of Homeland Security, Office of Inspector
                         General contractor. We were not engaged to and did not perform a
                         financial statement audit, the objective of which would be to express an
                         opinion on specified elements, accounts, or items. Accordingly, we were
                         neither required to nor expressed an opinion on the costs claimed for the
                         grant programs included in the scope of the audit. Had we been required
                         and performed additional procedures or conducted an audit of the
                         financial statements according to generally accepted auditing standards,
                         other matters might have come to our attention that would have been
                         reported. This report relates only to the programs specified and does not
                         extend to any financial statements of the State of Florida.

                         While the audit work was performed and the report was prepared under
                         contract, the audit results are being reported by the Department of
                         Homeland Security, Office of Inspector General, to appropriate DHS and
                         State of Florida officials.




                      The State of Florida’s Management of State Homeland Security Grants 

                                 Awarded During Fiscal Years 2002 through 2004 



                                                       Page 21
Appendix B
Organization Chart


                                      Florida Homeland Security Organization Chart
                                                       (FY 2002 – FY 2004)


                                Florida Cabinet             Florida Governor




                               Florida Division of        Florida Department of
                               Law Enforcement             Community Affairs



                                                            Florida Division of
                                                               Emergency
                                                               Management



                              Bureau of Compliance       Bureau of Preparedness        Bureau of Recovery
                              Planning and Support           and Response                and Mitigation




                     The State of Florida’s Management of State Homeland Security Grants 

                                Awarded During Fiscal Years 2002 through 2004 



                                                      Page 22 

Appendix C
Report Distribution




                        Department of Homeland Security

                        Secretary
                        Deputy Secretary
                        Chief of Staff
                        Deputy Chief of Staff
                        General Counsel
                        Executive Secretary
                        Assistant Secretary, Public Affairs
                        Assistant Secretary, Policy
                        Assistant Secretary, Legislative Affairs
                        DHS OIG Liaison
                        Chief Privacy Officer

                        Federal Emergency Management Agency

                        Assistant Administrator, Grant Programs Directorate
                        Deputy Administrator, National Preparedness Directorate
                        Federal Emergency Management Agency Audit Liaison
                        Grant Programs Directorate Liaison
                        National Preparedness Directorate Audit Liaison

                        Office of Management and Budget

                        Chief, Homeland Security Branch
                        DHS Program Examiner

                        Congress

                        Congressional Oversight and Appropriations Committee, as appropriate




                      The State of Florida’s Management of State Homeland Security Grants 

                                 Awarded During Fiscal Years 2002 through 2004 



                                                       Page 23
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4199, fax your request to (202) 254-4305, or visit the OIG web
site at www.dhs.gov/oig.


OIG Hotline
To report alleged fraud, waste, abuse or mismanagement, or any other kind of
criminal or noncriminal misconduct relative to department programs or
operations:

    •    Call our Hotline at 1-800-323-8603;
    •    Fax the complaint directly to us at (202) 254-4292;
    •    Email us at DHSOIGHOTLINE@dhs.gov; or
    •	   Write to us at:
           DHS Office of Inspector General/MAIL STOP 2600, Attention:
           Office of Investigations - Hotline, 245 Murray Drive, SW, Building 410,
           Washington, DC 20528.

The OIG seeks to protect the identity of each writer and caller.
